24
APPENDIX A - Order Denying Rehearing
FILED: May 13, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2283
(8:17-cv-02116-GJH)
ELSIE MARINO, Consumer
Plaintiff - Appellant
v.
JEFFREY NADEL, doing business as Law Offices of
Jeffrey Nadel; SCOTT E. NADEL; DANIEL
MENCHEL; MICHAEL MCKEOWN; CALIBER
HOME LOANS, INC.; BANK OF NEW YORK
MELLON, AS TRUSTEE FOR CIT MORTGAGE
LOAN TRUST 2007-1
Defendants - Appellees
ORDER
The petition for rehearing en banc was circulat­
ed to the full court. No judge requested a poll under
Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

25

APPENDIX B - Court of Appeals Decision
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2283
ELSIE MARINO, Consumer,
Plaintiff - Appellant,
v.
JEFFREY NADEL, doing business as Law Offices of
Jeffrey Nadel; SCOTT E. NADEL; DANIEL
MENCHEL; MICHAEL MCKEOWN; CALIBER
HOME LOANS, INC.; BANK OF NEW YORK
MELLON, AS TRUSTEE FOR CIT MORTGAGE
LOAN TRUST 2007-1,
Defendants - Appellees.
Appeal from the United States District Court for the
District of Maryland, at Greenbelt. George Jarrod
Hazel, District Judge. (8:17-cv-02116-GJH)
Submitted: March 11, 2019

Decided: April 3, 2019

Before NIEMEYER and DIAZ, Circuit Judges, and
HAMILTON, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Elsie Marino, Appellant Pro Se. Bizhan Beiramee,
BEIRAMEE LAW GROUP, P.C., Bethesda, Mary­
land; Melissa 0. Martinez, MCGUIREWOODS, LLP,
Baltimore, Maryland, for Appellees.

26

Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Elsie Marino appeals the district court’s order
dismissing her complaint. We have reviewed the
record and find no reversible error. Accordingly, we
affirm for the reasons stated by the district court.
Marino v. Nadel, No. 8:17-cv-02116-GJH (D. Md.
Sept. 27, 2018). We dispense with oral argument
because the facts and legal contentions are adequate­
ly presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

27
APPENDIX C - District Court Decision
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF MARYLAND
Southern Division
Case No.: GJH-17-2116
ELSIE MARINO
Plaintiff,
v.
JEFFREY NADEL D/B/A LAW OFFICES OF
JEFFREY NADEL, et al.,
Defendants.
MEMORANDUM OPINION
This case is an action brought by pro se Plaintiff
Elsie Marino alleging violations of the Fair Debt
Collection Practices Act (“FDCPA”), 15 U.S.C. §§
1692c, 1692(g) (a) (2), by Jeffrey Nadel d/b/a Law
Offices of Jeffrey Nadel, Scott Nadel, Daniel
Menchel, and Michael MeKeown (the “Substitute
Trustees”); Caliber Home Loans, Inc.; and The Bank
of New York Mellon, as Trustee for CIT Mortgage
Loan Trust 2007-1 (“BNYM”)J131 Defendants filed
Motions to Dismiss, ECF Nos. 7, 18. Plaintiff filed a
Motion for Entry of Default, ECF No. 17, followed
subsequently by a Motion for Leave to Amend the
Complaint, ECF No. 22. No hearing is necessary. See
Loc. R. 105.6 (D. Md. 2016). For the following rea-

13 The facts relied on herein are either undisputed or viewed in
the light most favorable to the Plaintiff. Unless otherwise
stated, the background facts are taken from Plaintiffs
Complaint, ECF No. 1, and are presumed to be true.

28

sons, Defendants’ Motions to Dismiss, ECF Nos. 7,
18, are granted. Plaintiffs Motions for Entry of
Default, ECF No. 17, and for Leave to Amend the
Complaint, ECF No. 22, are denied.
I. BACKGROUND
On June 5, 2006, Plaintiff executed a Deed of
Trust for a loan of $693,000 from Wilmington Fi­
nance, Inc., using her residence as security. ECF No.
1 f 15; ECF No. 1-1.04] Plaintiff received a letter
from the Nadel Firm dated January 23, 2017. ECF
No. 1 ff 22-24; ECF No. 1-1. In this letter, the firm
explains that Plaintiff “borrowed money from Wil­
mington Finance, Inc.” and that BNYM is the Trus­
tee currently holding the Note. Id. Plaintiff replied
with a letter requesting “the name of the creditor to
whom the debt is owed.” ECF No. 11 23.
In April 2017, all interest in the Deed of Trust
was assigned to BNYM. Id. f 25. This assignment
was recorded in the Land Records of Montgomery
County. Id. Plaintiff then received a second letter
from the Nadel firm, this one dated April 19, 2017,
informing Plaintiff she was in default for failing to
pay past due installments. ECF No. 1-4. This letter
identified Caliber as the Servicer, but did not identi­
fy the Creditor. Id. In June 2017, the Substitute
Trustees began foreclosure proceedings in the Circuit
Court for Montgomery County. ECF No. 1
36.
Plaintiff removed the foreclosure to this Court and
the Substitute Trustees filed a motion to remand,
r~

14 Pin cites to documents filed on the Court’s electronic filing
system (CM/ECF) refer to the exhibit and page numbers
generated by that system.

29
which this Court granted. See Nadel v. Marino, GJH17-2136, 2017 WL 4776991 (D.Md. Oct. 20, 2017).
II. STANDARD OF REVIEW
Defendants Caliber and BNYM move to dismiss
pursuant to Fed. R. Civ. P. 8(a) and 12(b)(6), con­
tending that the Complaint is not a “short and plain”
statement of the claim, and that the Plaintiff has
failed to state a claim for violations of the FDCPA.OS]
Defendant Substitute Trustees similarly move to
dismiss for failure to state a claim under 12(b)(6),
and also for improper service of process under Rule
12(b)(5).
On a motion to dismiss for failure to state a
claim pursuant to Fed. R. Civ. P. 12(b)(6), the Court
“must accept the factual allegations of the complaint
as true and construe them in the light most favorable
to the nonmoving party.” Rockville Cars, LLC v. City
of Rockville, Md., 891 F.3d 141, 145 (4th Cir. 2018).
To overcome a 12(b)(6) motion, the “complaint must
contain sufficient factual matter, accepted as true, ‘to
state a claim to relief that is plausible on its face.”’
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).
Plaintiffs must “provide sufficient detail” to show “a
more-than-conceivable chance of success on the
merits.” Upstate Forever v. Kinder Morgan Energy

15 Because the Court resolves the matter on the basis of Rule
12(b)(6), the Court need not resolve Defendant Substitute
Trustee’s motion to dismiss for improper service of process
pursuant to Rule 12(b)(5) or Defendants Caliber and BNYM’s
motion to dismiss for failure to make a short and plain
statement of the claim pursuant to Rule 8(a).

30

Partners, 887 F.3d 637, 645 (4th Cir. 2018) (citing
Owens v. Balt. City State’s Attorneys Ofice, 767 F.3d
379, 396 (4th Cir. 2014)). The mere recitation of
“elements of a cause of action, supported only by
conclusory statements, is not sufficient to survive a
motion made pursuant to Rule 12(b)(6).” Walters v.
McMahen, 684 F.3d 435, 439 (4th Cir. 2012). Nor
must the Court accept unsupported legal allegations.
Revene v. Charles Cnty. Commis., 882 F.2d 870, 873
(4th Cir. 1989). A plausibility determination is a
“context-specific inquiry” that relies on the court’s
“experience and common sense.” Iqbal, 556 U.S. at
679-80. A pro se plaintiff is held to a “less stringent”
standard than a lawyer, and the Court must liberally
construe a pro se plaintiffs pleadings. Erickson v.
Pardus, 551 U.S. 89, 94 (2007). Finally, a court “may
consider official public records, documents central to
plaintiffs claim, and documents sufficiently referred
to in the complaint so long as the authenticity of
these documents is not disputed.” Witthohn v. Fed.
Ins. Co., 164 F. App’x 395, 396 (4th Cir. 2006).
III. DISCUSSION
Plaintiff alleges three violations of the FDCPA.
First, Plaintiff contends that the Substitute Trustees’
communications to the customer regarding the debt
failed to identify the name of the creditor to whom
the debt is owed in violation of § 1692g(a)(2) and §
1692e. Second, Plaintiff contends that the recording
of the assignment of interest in the Land Records of
Montgomery County, Maryland, was a third-party
communication in violation of § 1692c(b), and that it
lacked disclosures required by § 1692e(ll). Third,
Plaintiff contends that the communications relating
to the legal action to foreclose were third-party

31
communications in violation of § 1692c(b).
To make a claim under the FDCPA, a Plaintiff
must plead that “(1) the plaintiff has been the object
of collection activity arising from consumer debt, (2)
the defendant is a debtor collector as defined by the
FDCPA, and (3) the defendant has engaged in an act
or omission prohibited by the FDCPA.” Flores v.
Deutchse Bank Nat’l Trust Co., 2010 WL 2719849 at
*6 (D.Md. 2010). The Court will focus on the third
element of the inquiry. Plaintiff1 s first alleged viola­
tion of the FDCPA involves the two letters sent by
the Substitute Trustees informing her that she had
defaulted on her loans. Plaintiff claims these letters
violated § 1692g(a)(2) because they did not include
the name of the creditor to whom the debt was owed,
and that they were thus false or misleading under
§ 1692e. The FDCPA requires that,
[wjithin five days after the initial com­
munication with a consumer in connection
with the collection of any debt, a debt collec­
tor shall, unless the following information is
contained in the initial communication . . .
send the consumer a written notice contain­
ing . . . the name of the creditor to whom the
debt is owed.
§ 1692g(a)(2).
The very first line of the January 23, 2017, letter
states that the letter is in reference to Plaintiffs loan
from Wilmington Finance, Inc. and the letter goes on
to explain that the current holder of the note is
BNYM. Plaintiff does not explain why these disclo­
sures are insufficient, except by offering unsupported
assertions that BNYM is not the creditor. See, e.g.,
ECF No. 1 f 52. The classification of an institution
as a creditor under the FDCPA is a question of law,

32
so Plaintiffs conclusory allegations to the contrary
need not be accepted as true. See Walters, 684 F.3d
at 439. The FDCPA defines a creditor as “any person
. . . to whom a debt is owed,” excluding any person
who “receives an assignment or transfer of a debt in
default solely for the purpose of facilitating collection
of such debt for another.” 15 U.S.C. § 1692a(4).
Plaintiff s own Complaint recognizes that BNYM is
the current holder of the note and has an interest in
the deed of trust, and thus BNYM is owed a debt
that it is collecting as the owner of the note—not for
any other third party. ECF Nos. 1-1, 1-3; see also
EOF No. 11 25.
As to the April 19 letter, by the plain language of
the statute, § 1692g(a) only required the identifica­
tion of the creditor within five days of an initial
communication. There can only be one initial com­
munication. See Senftle v. Landau, 390 F. Supp. 2d
463, 473 (D.Md. 2005). Therefore, the FDCPA did not
require the April 19 letter to identify the name of the
creditor; only the January 23 letter was required to
make that disclosure. Because Plaintiff has made no
plausible claim that the Substitute Trustees failed to
identify the name of the creditor in the January 23,
2017 letter, the Court holds that Plaintiff has failed
to state a claim for a violation of § 1692g(a).
Plaintiff next contends that Caliber’s recording
of the assignment of Wilmington Finance, Inc.’s
interest to BNYM was a third party communication
barred by § 1692c(b) and lacking disclosures required
by § 1692e(ll). The FDCPA bars debt collectors from,
“in connection with the collection of any debt,” com­
municating with a third party. But as pled here, the
recording of an assignment of interest in a deed of
trust was not an attempt to collect a debt, nor did it

33

have anything to do with the collection of any debt.
Rather, it is a way to ensure that a purchased inter­
est is legally protected. See generally Md. Code Ann.
Real Prop. §3-203 (explaining priorities in deed
interests based on recording date). Furthermore, the
disclosures required by § 1692e(ll) pertain only to
“written communication with the consumer.” The
recording of an assignment of interest was not a
communication with Plaintiff. Plaintiff was not and
is not a party to the assignment; indeed, she was
irrelevant to the recording of the transaction be­
tween Wilmington Finance and BNYM. Plaintiffs
allegations that the assignment violated §§ 1692c(b)
and 1692e(ll) both fail as a matter of law. See also
Owoh v. Sena, 2018 WL 1221164 at *5 (D.N.J. 2018)
(filing a lien with a county clerk was not a “commu­
nication” or “debt collection” under the FDCPA).
Finally, Plaintiff contends that the foreclosure
action and related communications violate § 1692c(b)
as third party communications to the court and to
the public at large. See ECF No. 1. f 50. Plaintiff
thus contends that the FDCPA bars debt-holders
from enforcing their debts in court. This Court has
already held that the FDCPA did not bar the Substi­
tute Trustees from moving to remand the foreclosure
action to state court. See Nadel, 2017 WL 4776991.
The same law and reasoning apply here. In Heintz v.
Jenkins, the Supreme Court recognized that, though
the FDCPA applies to debt-collecting attorneys, its
internal exceptions should be read to avoid any
resulting anomalies. 514 U.S. 291, 296 (1995). Sub­
section (b) of § 1692c contains just such an exception:
communications “reasonably necessary to effectuate
a postjudgment judicial remedy.” The filing of an
action to foreclose is a necessary precedent to reach-

34
ing a postjudgment judicial remedy, so communica­
tions with a court that are necessary to maintain
that foreclosure action do not violate § 1692c(b)J16l
See also Nadel, 2017 WL 4776991 at *2-3 (motion to
remand a foreclosure action did not violation
§1692c(b)); Cohen v. Wolpoff & Abramson, LLP, 2008
WL 4513569 at *6 (D.N.J. 2008) (reading into §
1692c(c) “an exception to the restrictions of the
FDCPA to allow the pursuit of the ordinary remedies
that debt collectors pursue”). Because Plaintiff has
failed to plausibly allege that Defendants engaged in
an act or omission prohibited by the FDCPA, the
Complaint shall be dismissed.
IV. CONCLUSION
Defendants’ Motions to Dismiss, ECF Nos. 7, 18
are granted. Plaintiffs Motion for Entry of Default
and Leave to Amend the Complaint, ECF Nos. 17, 22
are denied. A separate Order shall issue.
Date: September 27, 2018
Is/
GEORGE J. HAZEL
United States District Judge

16 Five months after the filing of the Substitute Trustees’
Motion to Dismiss, Plaintiff moved for leave to file an amended
complaint. ECF No. 22. Leave to amend should be denied when
the amendment would be futile. Edwards v. City of Goldsboro,
178 F.3d 231, 242 (4th Cir. 1999). The proposed amended
complaint added allegations that the Substitute Trustees’
motion to remand violated the FDCPA. For the same reasons
discussed herein and in Nadel, these additional allegations fail
as a matter of law and are thus futile.

